<html>
<title> - EXAMINING THE FINDINGS AND RECOMMENDATIONS OF GAO'S 2021 REPORT ON DUPLICATION, OVERLAP, FRAGMENTATION AND OPPORTUNITIES TO ACHIEVE FINANCIAL BENEFITS</title>
<body><pre>[Senate Hearing 117-36]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 117-36

                       EXAMINING THE FINDINGS AND
                RECOMMENDATIONS OF GAO'S 2021 REPORT ON
   DUPLICATION, OVERLAP, FRAGMENTATION AND OPPORTUNITIES TO ACHIEVE 
                           FINANCIAL BENEFITS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                EMERGING THREATS AND SPENDING OVERSIGHT

                                 OF THE

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS


                             FIRST SESSION

                               __________

                              MAY 12, 2021

                               __________

        Available via the World Wide Web: http://www.govinfo.gov

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
45-045 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------



        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                   GARY C. PETERS, Michigan, Chairman
THOMAS R. CARPER, Delaware           ROB PORTMAN, Ohio
MAGGIE HASSAN, New Hampshire         RON JOHNSON, Wisconsin
KYRSTEN SINEMA, Arizona              RAND PAUL, Kentucky
JACKY ROSEN, Nevada                  JAMES LANKFORD, Oklahoma
ALEX PADILLA, California             MITT ROMNEY, Utah
JON OSSOFF, Georgia                  RICK SCOTT, Florida
                                     JOSH HAWLEY, Missouri

                   David M. Weinberg, Staff Director
                    Zachary I. Schram, Chief Counsel
                Pamela Thiessen, Minority Staff Director
    Andrew Dockham, Minority Chief Counsel and Deputy Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk


        SUBCOMMITTEE ON EMERGING THREATS AND SPENDING OVERSIGHT

                 MAGGIE HASSAN, New Hampshire, Chairman
KYRSTEN SINEMA, Arizona              RAND PAUL, Kentucky
JACKY ROSEN, Nevada                  MITT ROMNEY, Utah
JON OSSOFF, Georgia                  RICK SCOTT, Florida
                                     JOSH HAWLEY, Missouri

                     Jason Yanussi, Staff Director
            Allison Tinsey, Counsel for Governmental Affairs
                  Greg McNeil, Minority Staff Director
          Aaron Gottesman, Minority Professional Staff Member
                      Kate Kielceski, Chief Clerk
                           
                           C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Hassan...............................................     1
    Senator Paul.................................................     2
    Senator Lankford.............................................    10
    Senator Hawley...............................................    15
Prepared statements:
    Senator Hassan...............................................    21
    Senator Paul.................................................    23

                               WITNESSES
                        Wednesday, May 12, 2021

Hon. Eugene L. Dodaro, Comptroller General of the United States, 
  U.S. Government Accountability Office
    Testimony....................................................     4
    Prepared statement...........................................    25

                                APPENDIX

Responses to post-hearing questions for the Record:
    Mr. Dodaro...................................................    34

 
                       EXAMINING THE FINDINGS AND
                  RECOMMENDATIONS OF GAO'S 2021 REPORT
                        ON DUPLICATION, OVERLAP,
     FRAGMENTATION AND OPPORTUNITIES TO ACHIEVE FINANCIAL BENEFITS

                              ----------                              


                        WEDNESDAY, MAY 12, 2021

                                     U.S. Senate,  
                       Subcommittee on Emerging Threats and
                                        Spending Oversight,
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:30 p.m. in 
via Webex and in room 342, Dirksen Senate Office Building, Hon. 
Maggie Hassan, Chairman of the Subcommittee, presiding.
    Present: Senators Hassan, Sinema, Ossoff, Paul, Romney, 
Scott, and Hawley.
    Also present: Senator Lankford.

             OPENING STATEMENT OF SENATOR HASSAN\1\

    Senator Hassan. This hearing will come to order. Good 
afternoon. The Subcommittee on Emerging Threats and Spending 
Oversight (ETSO) convenes today's hearing to discuss the 
Government Accountability Office's (GAO) 2021 annual report on 
duplication, overlap, and fragmentation in Federal programs, 
and opportunities to save taxpayer dollars through better 
program management.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Hassan appears in the 
Appendix on page 21.
---------------------------------------------------------------------------
    I am grateful to Comptroller General Gene Dodaro and to the 
GAO analysts assisting him today for their testimony, and for 
their efforts to not only identify areas of government waste 
but also to provide constructive recommendations for 
eliminating that waste to save substantial taxpayer dollars.
    This year we celebrate GAO's 100th anniversary. Following 
World War I, Congress saw the need for better control of 
expenditures, so it established GAO to investigate how Federal 
dollars are spent and to review all Federal expenditures. While 
GAO no longer tracks every penny spent by Federal agencies, its 
core mission, to oversee Federal agency performance and 
financial management, remains unchanged.
    In 2010, Congress asked GAO to publish an annual report on 
Federal programs and initiatives that have duplicative goals or 
activities, and thus lead to wasteful spending. Eleven years 
later, the annual duplication report has led to roughly $429 
billion in financial benefits to the Federal Government. 
Progress made by the Executive Branch and Congress to address 
some of the more than 1,100 actions and recommendations made in 
these reports has improved agency performance and resource 
management. It has also saved billions of taxpayer dollars and 
enhanced service delivery to the American people.
    GAO's newest report makes 112 recommendations in 33 new and 
existing issue areas. Topics covered in this year's report 
include the Department of Defense's (DOD) fragmented system for 
processing dependency determinations for servicemembers' adult 
children who experience disabilities; the National Nuclear 
Security Administration's efforts to encourage cost-saving 
practices in its contracts, which could save hundreds of 
millions of dollars; and the duplication and overlap of 
infectious disease modeling, which, if streamlined at the 
Department of Health and Human Services (HHS), could help the 
government better plan for and respond to disease outbreaks 
such as the coronavirus disease 2019 (COVID-19) pandemic, and 
save taxpayer dollars in the process.
    While many recommendations made over the past 11 years have 
yet to be addressed, I am committed to ensuring that Congress 
does its part to eliminate duplication, overlap, and 
fragmentation to achieve billions in savings. That is why I 
introduced two bills with Ranking Member Paul last Congress, 
the Acting on the Annual Duplication Report Acts of 2019 and 
2020. These bills directly respond to the recommendations for 
congressional action detailed in the annual duplication 
reports.
    In addition, I co-sponsored Ranking Member Paul's 
Duplication Scoring Act, which would require GAO to review 
legislation to determine whether it risks duplicating existing 
Federal programs. As then-Chairman Paul noted, when we did our 
first duplication report hearing together in 2019--this is your 
quote--``One thing we all agree on is that the kind of 
inefficiencies caused by duplication need to be corrected.''
    I urge my colleagues to consider supporting these 
bipartisan pieces of legislation. Once again, thank you to Mr. 
Dodaro and to your team for testifying today. I look forward to 
today's discussion on how Congress and Federal agencies can act 
on the recommendations made in this year's report to be better 
stewards of taxpayer dollars.
    I will now recognize Ranking Member Paul for his opening 
remarks.

              OPENING STATEMENT OF SENATOR PAUL\1\

    Senator Paul. Thank you, Madam Chair, for holding this 
hearing, and thanks to our witness, Comptroller General Dodaro, 
for joining us.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Paul appears in the Appendix 
on page 23.
---------------------------------------------------------------------------
    One thing I always hear from taxpayers is frustration with 
government waste. Despite Americans' desire for less waste, 
little around here gets done to fix the problem. To its credit, 
GAO has made great strides identifying areas for us to work on. 
I am pleased that Senator Hassan shares my commitment to 
solving the problem, but not everybody in Congress shares our 
zeal. Often Congress creates waste by wanting to look like we 
are doing something. I call this the ``big heart, small brain'' 
syndrome around here. Everybody wants to show they care, but 
nobody wants to think about, did we already have a program that 
showed we cared 2 years ago that is not working?
    Part of the problem is also that we reauthorize the 
spending so infrequently, so we have whole committees and whole 
areas that go on, sometimes for decades. No one ever examines 
whether they are working, whether we are duplicating them, or 
whether or not we should change anything, because nobody ever 
reauthorized them. It is a terrible deficiency of government 
that goes on, year after year.
    We have seen recently some of the problems, even in the 
recent stimulus bill. It included a new community outreach 
program in the Small Business Committee's jurisdiction, where I 
am the Ranking Member, but it simply just copied an already 
existing program.
    We have to do better, and I hope this hearing will help us 
in Congress realize what Americans intuitively know. There are 
times where government waste occurs because government agencies 
cannot coordinate. For years, the Food and Drug Administration 
(FDA) and the U.S. Department of Agriculture (USDA) have been 
competing over the regulation of different types of food. 
Ultimately, they have arrived at some strange decisions. For 
example, for products containing poultry, the FDA regulates 
items with 2 percent cooked poultry meat, while the rest are 
regulated by the USDA. This is so arcane, I do not think anyone 
alive knows why the FDA has certain poultry products and the 
USDA has the rest, but it doesn't make any sense.
    Imagine the cost, though, not only to the taxpayer but to 
American businesses, of figuring out which agency's regulation 
apply to poultry. Now the USDA and FDA are locking horns again, 
this time over meat grown in a lab that is not even on the 
market yet.
    But other items, overlapping programs create waste 
directly. For years we have known that the Federal Government's 
information technology (IT) programs need improvement, and 2 
years ago the Office of Management and Budget (OMB) directed 
agencies to streamline their contracting. But they didn't. 
Instead, GAO found five of seven agencies had not used the 
strategies both GAO and OMB directed them to use to limit 
waste. We are still wasting millions of dollars each year on IT 
contracts.
    This is just two of the many examples of duplication, 
fragmentation, and overlap, causing billions of wasted dollars. 
But it does not need to be this way. Chair Hassan and I have 
co-sponsored a bill, the Duplication Scoring Act, to help fix 
these sorts of problems. It would have GAO note ways proposed 
legislation would create waste and flag it for Congressional 
Budget Office (CBO) to include in its scores. Our bill will 
help Congress make better decisions and save taxpayers 
billions. I am pleased we have passed this bill in Committee, 
and I am hopeful it will pass the Senate and be signed into law 
this Congress.
    I am interested to learn more about where the Federal 
Government has made progress from earlier duplication reports, 
where we continue to fail, and how the Duplication Scoring Act 
will help us to improve Congress' performance when it comes to 
wasteful spending. Thank you.
    Senator Hassan. Thank you, Senator Paul. It is the practice 
of the Homeland Security and Governmental Affairs Committee 
(HSGAC) to swear in witnesses. If the witness will please stand 
and raise your right hand.
    Do you swear that the testimony you give before this 
Subcommittee will be the truth, the whole truth, and nothing 
but the truth, so help you, God?
    Mr. Dodaro. I do.
    Senator Hassan. Thank you. Please be seated.
    The Subcommittee is joined today by Comptroller General 
Gene Dodaro. Mr. Dodaro's career at GAO began more than 45 
years ago, and he has spent the last 10 years at its helm. As 
Comptroller General, Mr. Dodaro oversees the issuance of 
hundreds of reports, testimonies, reviews, and opinions each 
year. He has appeared before Congress on multiple occasions to 
provide testimony on a variety of topics, including the COVID-
19 pandemic, GAO's high-risk list report, the Federal fiscal 
outlook, and, of course, efforts to reduce and eliminate 
duplication and overlap all across government.
    Mr. Dodaro is assisted today by five GAO analysts who 
assisted with compiling this year's report. They include 
Jessica Lucas Judy, Cathleen Berrick, Vijay D'Souza, Mark 
Gaffigan, and Michele Mackin.
    Welcome, Mr. Dodaro. You are recognized for your opening 
statement.

  TESTIMONY OF THE HONORABLE EUGENE L. DODARO,\1\ COMPTROLLER 
 GENERAL OF THE UNITED STATES, U.S. GOVERNMENT ACCOUNTABILITY 
                             OFFICE

    Mr. Dodaro. Thank you very much. Good afternoon, Chair 
Hassan, Ranking Member Paul. I appreciate the opportunity to 
discuss this year's annual report on overlap, duplication, and 
fragmentation. We also include cost savings and revenue 
enhancements to try to make the government more efficient and 
effective.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Dodaro appears in the Appendix on 
page 25.
---------------------------------------------------------------------------
    I want to thank both of you for your legislative proposals 
to advance implementation of our recommendations and to try to 
prevent additional areas from becoming duplicative in the 
future.
    As noted, Chair, in your opening remarks, in the first 9 
years of issuing this report we had over 900 recommendations. 
Fifty-seven percent of those have been fully implemented, and 
another 22 percent partially implemented. That has led to 
hundreds of billions of dollars in financial benefits.
    Importantly, that number will grow. There has already been 
some additional action taken on our recommendations that will 
grow financial benefits by tens of billions of dollars. There 
are tens of billions of dollars yet in the offing that can be 
achieved through implementation of our recommendations.
    This year we have 112 new recommendations for consideration 
by the Congress and the Executive Branch. The first 
recommendation has to do with leveraging the government's 
enormous potential purchasing power by pulling together to buy 
common items--like medical supplies, office supplies, et 
cetera. There has been some progress in this area, but there 
can be much more. The result--significant savings.
    In the information technology area, as you mentioned, 
Senator Paul, there are opportunities to eliminate duplicative 
IT contracts. There are also opportunities in the IT arena to 
slim down the government's multi-billion-dollar investment 
every year by consolidating systems that help States run their 
Medicaid programs, and also to streamline computer security 
requirements imposed by multiple agencies that are duplicative 
on the States. This also detracts from their ability to deal 
with very serious cybersecurity issues, such as ransomware.
    On the revenue side, we make a recommendation to the 
Internal Revenue Service (IRS) to better manage the 
fragmentation of its third-party information reporting systems. 
These are very important systems but there are over 50 
different reporting forms and IRS does not look at the value 
and burden of this information comprehensively. We think if 
they do that, and if Congress gives IRS the authority to 
correct administrative errors and to set requirements for 
unenrolled paid tax preparers, there could be a significant 
dent in the over $350 billion annual net tax gap between taxes 
owed and taxes collected. This would bring in additional 
revenue to the government without changing any of the tax 
structures at all.
    There are also important findings in the public health 
area. One was mentioned, infectious disease modeling, but there 
are also findings in research to deal with antibiotic-resistant 
bacteria. There were over 2.8 million types of infections where 
antibiotics were not fully effective and over 35,000 people die 
each year from these infections. We have recommendations to 
streamline the research for these activities as well as to 
better oversee the over 2,000 labs that FDA has, in terms of 
their safety, because they contain live viruses used for 
research.
    I am very pleased to be here today. I look forward to 
answering your questions and the questions of other Members on 
the Subcommittee. I thank you again for your intense interest 
in this area and your zeal. Chair Hassan and Ranking Member 
Paul, I appreciate that. You two have provided great 
leadership, and I look forward to working with the Subcommittee 
to better advance these recommendations and to make our 
government more efficient and effective.
    Thank you very much.
    Senator Hassan. Thank you very much, Mr. Dodaro, and I will 
start with some questions and then we will move to the Ranking 
Member, and then we will see who else has checked in and is 
available for questions.
    Before we discuss particular issues in this year's report, 
I would like to discuss the methodology of the report and how 
GAO identifies duplication or overlap in agency operations.
    Earlier this year, I stressed to President Biden's Office 
of Management and Budget appointees the need to complete the 
Federal Program Inventory that Congress has directed OMB to 
create. This inventory would provide taxpayers with a more 
complete picture of Federal program costs and performance, and 
allow us to better identify wasteful programs in order to 
reform or eliminate them.
    How would a complete Federal Program Inventory assist GAO 
in compiling the annual duplication report?
    Mr. Dodaro. An accurate program inventory that meets all of 
the requirements Congress has passed would greatly improve the 
efficiency of our reviews. Right now it takes an incredible 
amount of time to identify programs across the Federal 
Government, and to make sure the information is reliable, 
before we can even start the analysis on duplication. This 
would give us a great head start, and we would be in a position 
to do more within the same period of time if there was a 
complete inventory.
    I have already met with Acting OMB Director Shalanda Young 
and Jason Miller, the new Deputy Director for Management. I 
have talked about the importance of the inventory that they 
need to develop. We are going to be meeting with them again 
later this month. I want to make sure that we do everything we 
can to help them get the inventory right the first time, and 
not have to come back later and say it is not complete or 
consistent, or the data are not reliable. I am working to do 
that.
    Senator Hassan. Thank you. Next question. Over the years, 
GAO has added new recommendations to issue areas identified in 
previous reports. One of the areas where GAO continues to 
identify duplication and overlap is food safety oversight, and 
this is something Ranking Member Paul mentioned, by two 
different agencies, the U.S. Department of Agriculture and the 
Food and Drug Administration, which is housed within the 
Department of Health and Human Services.
    For example, in 2019, the report discussed tension between 
these two agencies when it came to examining arsenic levels in 
rice. This year, they are at odds about oversight of cell-
cultured meat products. This trend seems to continue with 
little progress made to reduce duplication or address 
underlying issues causing the overlap.
    Why do certain areas see persistent trends in duplication, 
overlap, or fragmentation over others? Are there underlying 
issues that need to be addressed by Congress to improve 
cooperation among agencies with overlapping missions?
    Mr. Dodaro. There are a number of factors that create this 
situation. First, there is inherent fragmentation in several 
areas in the Federal Government including food safety. You and 
Senator Paul have mentioned two agencies but actually, there 
are 15 different agencies administering 30 different laws in 
food safety. We have had this issue on our high-risk list since 
2007, asking for reform in that area or restructuring to 
clarify roles and responsibilities by the Congress, or, the 
development of a governmentwide performance plan or a national 
strategy that is articulated by the Executive Branch to ensure 
a cohesive approach. Improving Federal oversight of food safety 
is complicated by the fact that a lot of agency roles and 
responsibilities are added over time. As Senator Paul 
mentioned, they are incremental changes.
    Second, there are a lot of issues where multiple agencies 
are involved, and OMB really does not have the bandwidth to be 
able to handle this and sort these things out. Then you combine 
that, third, with a lot of turnover within the political 
leadership of these departments and agencies. The fourth factor 
is the congressional jurisdictions, which you would need 
multiple committees to work together in order to help solve 
this problem.
    Unfortunately it is endemic in the Federal structure and 
systems, but there is a lot that could be done to better manage 
it.
    Senator Hassan. Let me follow up on that last point, 
because I understand your outline here. But how might agencies 
better identify trends in the types of programs or operations 
that appear in the annual duplication report year after year, 
in order to address the root causes of that duplication, 
overlap, or fragmentation?
    Mr. Dodaro. Yes. First, they should expeditiously implement 
GAO and Inspector General (IG) recommendations that have 
already documented these areas and known weaknesses. They 
should act on those recommendations.
    Second, they should work diligently with OMB to produce the 
program inventory. We are not the only ones hampered by not 
having a program inventory. So are the agencies. They do not 
know what is going on across the rest of the Federal Government 
in an easily identifiable fashion. We found teacher education 
programs, many of which are not in the Education Department. We 
found the same thing with housing programs, employment 
training, et cetera. There is no ready way for them to identify 
it.
    Third, duplication issues need much more attention at the 
senior leadership at the agency. Most of the Federal 
departments and agencies are very stovepiped, and they only 
know, for example, what their IT contracts are in their bureau. 
They don't know about IT contracts across the department, and 
that is part of the problem. There is not enough sharing of 
information, not enough transparency and visibility by senior 
leaders in the agencies to do this.
    We have pointed out that a lot of the agencies have not 
given all the chief information officers (CIOs) the full 
authorities that are contemplated in the law. If properly 
authorized chief information officers can be helpful partners 
in dealing with this issue.
    Senator Hassan. Thank you. Quickly, one last thing before 
we turn it over to the Ranking Member for his questions. 
Roughly one out of every ten recommendations made in the annual 
duplication reports requires congressional action. Congress has 
to do its part to address these recommendations by passing 
legislation that eliminate duplication and enables cost 
savings.
    This year, the annual duplication report includes just one 
action item for congressional consideration. It involves 
payments made to private military housing contractors and 
opportunities to save millions of dollars by changing how these 
payments are calculated.
    Can you briefly elaborate on that, and we can always come 
back to it.
    Mr. Dodaro. Yes. First, the military housing allowance is 
an important part of cash compensation to military 
servicemembers, second only to their basic pay. DOD made a 
recommendation to Congress that they gradually reduced the 
housing allowance to redirect some of the money to training and 
other areas. Congress allowed that to be done, and so housing 
allowances were reduced.
    This ultimately impacted the private housing projects, run 
by the private sector developers under contract, which 
primarily rely on the housing allowance as their revenue. The 
concern was if these private sector developers did not have 
enough revenue they would not invest and make sure there was 
proper maintenance and care of the facilities. Congress 
authorized payments to the housing projects, and they 
authorized those payments based upon local housing rates, while 
the housing allowance was reduced based on the average national 
rate. There is a mismatch, and they are not actually being 
compensated properly.
    We think it was just an oversight, and we are suggesting 
that both the housing allowance reduction and payments to 
privatized housing developers use the average national rate, 
and we think this will take care of the problem and save 
millions of dollars.
    Senator Hassan. Thank you, and thanks, Senator Paul, for 
being patient here. I will now turn it over to you for your 
questions.
    Senator Paul. If Congress were to pass the Duplication 
Scoring Act and you were requested by law to give a duplication 
score or information to CBO so it could be reported with each 
bill, is that something you would be physically capable of 
doing, that your agency could do?
    Mr. Dodaro. We could use some additional support from the 
Congress. As you know, we have been given vastly enhanced 
responsibilities under the pandemic relief packages that have 
been enacted. But I think we can do it--we have the skilled 
people, the institutional knowledge across government and deep 
knowledge in programs and activities. We can do it. We could 
use some support from the Congress to do it quickly, Senator.
    Senator Paul. When you were talking about food regulation a 
few moments ago I think you said--let me see if I have it 
right--15 different agencies have, what, 30 different 
standards?
    Mr. Dodaro. Thirty different laws.
    Senator Paul. Thirty different laws, for--it is food 
regulation or food safety?
    Mr. Dodaro. I think it is both. I have my expert, Mark 
Gaffigan, on the line. Mark, would clarify for the Senator, 
please?
    Mr. Gaffigan. Yes. It is food safety. Of course, the 
regulation is also part of that.
    Mr. Dodaro. Yes. He is saying that the laws are for food 
safety, but they are implemented through regulations.
    Senator Paul. Safety regulation. But basically you are 
saying 15 different agencies, 30 different laws----
    Mr. Dodaro. Right.
    Senator Paul [continuing]. It sounds like a confusing 
smorgasbord to try to figure this out.
    Mr. Dodaro. It is. There used to be a food safety working 
group, but that has been abandoned. We have recommended that 
Congress put that group in statute so that the group meets and 
coordinates. This is an area, as I mentioned, we have had it on 
our high-risk list, Senator, for over 13 years.
    Senator Paul. This would involve, processing of food, like 
from farm or from butchering, and all the way through to the 
grocery store?
    Mr. Dodaro. Yes, and labeling, everything.
    Senator Paul. All right. I believe you looked at some of 
the problems with real property data management in the DOD. 
There are 603,000 buildings. Is it clear which buildings are 
actively being used, which are surplus, which could be sold? Is 
that part of the problem of looking at this?
    Mr. Dodaro. Yes, that can be part of the problem. The basic 
problem we are identifying this year is that each service 
independently sets their approaches for verifying the existence 
and completeness of these buildings, and what condition they 
are in. As a result you cannot get a good picture of how 
reliable DOD's real property records are. Let's say, for 
example, there is a building that is owned by the Air Force, 
but the Army is moving into that area, just as an illustrative 
example. They could maybe use the building, or they could lease 
it within the services. They need a comprehensive approach to 
improve their data.
    In fairness, as I noted when I was here in March talking 
about the high-risk area, they have reduced the number of 
buildings that they have and reduced the leasing costs. But we 
think they could do more with better data, and this is what our 
suggestion is here. How they go about it is fragmented. This is 
one of the reasons they cannot pass an independent audit, and 
it is also important----
    Senator Paul. Oh it is coming, though. It is coming soon, 
right?
    Mr. Dodaro. It is coming to a theater near you, at some 
point. Right now it is still in the trailer status.
    Senator Paul. But anyway, the 603,000 buildings is DOD. 
Then when we talk about the rest of government, we must have 
hundreds of thousands of buildings with the rest of government. 
Do you think there is any coordination between DOD and the rest 
of government? Because if the rest of government were moving 
military, they could also use another government building that 
might sit vacant in a town as well.
    Mr. Dodaro. That is exactly right, Senator. Real property 
management is still on our high-risk list. The governmentwide 
data are not as good as it needs to be. You have the same 
problem governmentwide that you have within DOD. We're singling 
out DOD this year, but the problem with the data is 
governmentwide. They are making some progress but I am trying 
to get them to move faster in this area.
    We mentioned, in this year's report, that most of the 
street addresses, about two-thirds of the street addresses in 
the governmentwide data were unable to be read by computer or 
were not very clear, so you do not know exactly where the 
property is. This is an area where there needs to be much 
better management by the General Services Administration (GSA) 
and some governmentwide leadership by OMB as well.
    Senator Paul. I think it was a couple of years ago there 
was a hearing, and Social Security had 6.6 million people 
listed over 112 years of age still active in their rolls. The 
numbers and the degree of the problem is astounding.
    Is part of your job to list properties that are vacant or 
not in use, that are surplus properties, or is that not part of 
your purview?
    Mr. Dodaro. It is the responsibility of the individual 
agencies to do that and we look at how well they are doing. We 
did give credit to GSA this past year for reducing their 
leasing costs and getting out of very high-cost leasing areas 
where they should have bought the building in the first place, 
like the Department of Transportation (DOT) headquarters 
building. We know we are going to have a Department of 
Transportation for a while, so they finally bought the building 
and saved millions of dollars in leasing costs.
    But it is up to the individual agencies to do that, and we 
follow up to see if they are doing it as well as they could. We 
think they are impeded by the lack of good information.
    Senator Paul. Thank you.
    Senator Hassan. Thank you, Senator Paul. I see that Senator 
Lankford has arrived, and if you are ready, sir, you can 
proceed with your questions.

             OPENING STATEMENT OF SENATOR LANKFORD

    Senator Lankford. Madam Chair, thank you for allowing me to 
be able to join in the conversation today as well. I am not 
normally on this Subcommittee but I appreciate it very much, 
getting a chance to come in and pepper Gene Dodaro with 
questions. Gene, it is good to be able to see you again.
    Thanks for bringing up the Department of Transportation 
building. I have made that exact same statement over and over 
again. Why we leased a building for $700 million for 10 years 
and then offered to buy it for $700 million after that, I have 
no idea. We are trying to work through the process of actually 
how we handle leasing and purchases. That is a congressional 
accounting process. That is a foolish way for us to handle our 
accounting, rather than being able to do it right for the 
taxpayer. I appreciate your engagement in every way on that.
    I am going to be a one-trick pony with you. You and I have 
talked multiple times about the taxpayer's right to know, and 
that is something that we finally passed this past year, after 
years of working through the process. The challenge we have is 
implementation on it, as you and I have spoken about before.
    The Government Performance and Results Modernization Act is 
a full 10 years behind being actually implemented. Taxpayers' 
right to know will sit on top of that to actually get 
information out. What can we do at this point to be able to 
encourage the administration, to be able to keep the 3-year 
legislative required deadlines that they have for 
implementation, and what markers should we be looking for?
    Mr. Dodaro. Yes. First of all, I believe that this is very 
important. I would like to see them beat those legislative 
requirements, Senator. I already had a meeting with Acting 
Director Shalanda Young and Jason Miller to engage in a wide 
variety of issues, including the high-risk areas, but I 
mentioned the program inventory as well. We are going to be 
meeting with them again later this month to begin to flesh that 
out.
    In their pilot, they have identified some limitations, but 
I think it was a good step forward. They incorporated some of 
our previous recommendations in their pilot approach, which 
covered multiple areas. They picked 12 areas, and there were 
over 700 programs identified by 34 different agencies, to 
identify the recipients and the beneficiaries, so you could 
also triangulate that issue as well. But there are some data 
limitations, and there are some consistency issues. They need 
to also link it to and build upon the Digital Accountability 
and Transparency Act of 2014 (DATA) Act requirements as well as 
the Government Performance Modernization (GPRA) Act 
requirements that you mentioned.
    We are going to get engaged. The law only requires us to 
look at this effort 2 years after they have fully implemented 
the inventory. However, we are going to be engaged all along.
    I think the next thing would be to ask for an incremental 
report from them about what they learned from the pilot program 
and what their next steps are going forward, and how to engage 
the rest of the government to get commitment from the agencies 
to work on this with them. Because if the agencies are not 
cooperating and working toward this, OMB cannot do it alone. 
They do not have the bandwidth to be able to do it.
    We are going to be engaged at every step of the way along 
the process, as we were with the DATA Act, which led to a 
successful implementation of the DATA Act. We will be engaged. 
But I think periodic progress reports from OMB would be 
appropriate, and we will be reporting ourselves, officially. We 
are going to start a more detailed approach this year. We are 
still digging out from our pandemic responsibilities. But we 
are going to evaluate the pilot and the next steps. We will be 
reporting to the Congress as well.
    Senator Lankford. OK. That would be extremely helpful to 
get that. We will continue to be able to ask questions here in 
this Committee. Obviously I am going to ask questions of OMB 
and continue to track that as well, not to be unfair to them 
but I want to make sure it does not get lost. Obviously, as we 
see other requirements that are a decade behind, we want to try 
to make sure that this one actually keeps up. There is no 
reason that it shouldn't. Again, the pilot has already started. 
Even before the bill was passed, the administration before saw 
it and started actually implementing some ideas to say what if 
this actually got implemented and how could we do it. That was 
helpful for the Trump team to do that and start getting that 
process going, because we think it is reasonable, good 
governance in the process.
    If I could just highlight a couple of other things on this. 
You and I have talked about it before. Everything coming out of 
your office, every time that this body asks you a question on 
it, as blunt as you can be in your reports, please do. I have 
noticed over the past 5 or 6 years you are being more careful 
in how you word things. We need you to be blunt and clear on 
everything, to be able to say here is what we saw, here is how 
we actually would recommend getting it fixed and allow us to be 
able to agree or disagree with the recommendations. But don't 
send us safe; send us clear on the different pieces of 
information.
    One other question that I have for you as well is on the 
issue of remote work. A lot of agencies, if 2 years ago we 
asked them, and some we did, how many of your employees could 
telework, they would say 15, 20 percent max. Then the pandemic 
hit and we had 85 percent teleworking in many agencies. They 
all learned there are a lot of things they could do.
    In that process, we are all learning there may be some jobs 
that we would not have to list at all to be in the D.C. metro 
area, in one of our headquarters offices, with the most 
expensive real estate in the country. These could be remote, an 
expectation that some of these jobs could be used on USAJobs 
and they could get hired here or they could get hired somewhere 
else, especially for individuals that are spouses of our 
active-duty military. They get moved around the country all the 
time, and they are in very remote posts and bases. It would be 
a great employment option for some of these folks to also be 
able to work for agencies and have the expectation they could 
do remote work for those agencies, no matter where they are.
    That would potentially save us a tremendous amount of money 
as well, just on footprint for office space. Tell me where I am 
wrong on that, or as your team is looking at the issue of 
remote work and telework, what your expectations might be for 
how we could be more efficient.
    Mr. Dodaro. No, you are not wrong on that. I think each 
agency ought to do a reassessment coming out of the pandemic 
when they were forced to do remote work. We have had some 
recommendations for IRS, for example. They had to stop all 
their processing because a lot of it is done through paper at 
the service centers, but there is repurposing that could be 
done, in some cases, to keep people more active in that area. 
Taxpayer service is another area where it could be done 
remotely with properly trained people.
    There are a lot of opportunities, and I think Congress 
could ask the agencies to develop those plans. We are going to 
be looking at their experience with telework, so we will have 
some suggestions. But I think it is a way to not only expand 
the workforce but to make it more diverse, not just 
geographically but more diverse in all sorts of different 
dimensions. I think it is a really good way to go, for certain 
jobs. You have to be careful. You have to plan. You have to 
manage it. You have to train the people. You have to have 
proper oversight. But it can work, and it can work more than it 
has been done pre-pandemic status.
    I will be as blunt as the evidence allows me to be.
    Senator Lankford. Terrific. We will take that. Thank you. 
Chair, thank you very much for allowing me to jump in.
    Senator Hassan. Thank you very much, Senator. We have a 
couple of other Senators who may be arriving, but in the 
interim I have some additional questions, and then, Senator 
Paul, if you have any additional questions we can follow up 
that way too.
    Mr. Dodaro, as GAO has previously identified, the Federal 
Government spends upward of $175 billion annually on improper 
payments. To put that number into perspective, if we considered 
improper payments like an agency budget, it would be the third-
largest agency in terms of discretionary spending, just behind 
the Departments of Defense and Health and Human Services.
    Last year, Congress finally passed legislation to expand 
information-sharing between agencies to address improper 
payments. This legislation is expected to significantly curb 
wasteful spending associated with improper payments, and I was 
glad to support it.
    How soon can agencies and taxpayers expect to see declines 
in improper payments as this legislation is implemented?
    Mr. Dodaro. A lot depends on how effectively it is 
implemented and how fast it is implemented. The Stop Payments 
to Deceased People Act gives Social Security 3 years to 
determine whether it is feasible to share the full death master 
file (DMF) with Treasury's Do Not Pay program. In my view, it 
should be done faster than that, much faster, and I have 
already talked to OMB and others about it in the administration 
to see if they could move that faster in that area. Sharing was 
done with the stimulus payments, so it has been done already. 
We know that could be faster.
    Also, the laws require better risk assessments. 
Unfortunately, I hate to be the bearer of bad news but I think 
the problem is going to get worse before it gets better. The 
number for this last year, in 2020, went up over $200 billion, 
from $175 billion. A lot of it is due to Medicaid and Medicare, 
but mostly Medicaid, and it is the fastest-growing program. I 
am going to be working with the new administration to try to 
get them to focus on this issue.
    These numbers, Senator, are understated. Not all the 
programs are reporting properly. Some are reporting nothing at 
all. But the legislation is very helpful. I appreciate your 
support and other members' support to get the legislation, and 
I would encourage the agencies to move as swiftly as possible. 
I will be doing it from my vantage point as well.
    Senator Hassan. Terrific, and we will continue to do that. 
I want to turn to another agency here. The 2021 annual 
duplication report discusses improper payments made by the 
Department of Energy. Specifically, in fiscal year (FY) 2019, 
Energy identified $31.7 million spent on improper payments, but 
GAO asserts that that number could be much higher, or at least 
more accurate, if Energy used recovery audits to determine 
payment integrity.
    Can you describe why the Department of Energy is not using 
this recommended audit method to track its improper payments? 
How could using recovery audits assist the Department with 
reducing improper payments?
    Mr. Dodaro. Yes. They feel they are doing as much as they 
need to, and we respectfully disagree. The law requires the use 
of recovery audits for programs over $1 million, if it is cost 
effective. The Department does not know whether it is cost 
effective or not since they have not tried it. The audits that 
they are relying on are years behind, in some cases more than 6 
years later, and so every year there are two-thirds of the 
payments that they report on without having them audited.
    I think that they should try this. If they do not, I plan 
on elevating it as a matter to the Congress in order to require 
them to do so. I think it is not too much to ask, to try this 
when it has worked in many cases across the government. It is 
specifically focused on the payment process--to look for 
overpayments. Given that this is a governmentwide problem, I 
find it difficult to believe that it would not be of benefit to 
DOE. But it needs to be at least tried.
    Senator Hassan. OK. Thank you. I would look forward to 
working with you on that.
    Of the $90 billion that the Federal Government spends on 
information technology, $50 billion funds contracts for 
products and private services. However, many of those contracts 
are duplicative, meaning that agencies are buying the same 
products and services twice sometimes.
    To reduce contract duplication, the Office of Management 
and Budget directed agencies to implement category management 
principles for their IT acquisitions. Category management uses 
industry-leading practices to streamline agency acquisition of 
major products and services, such as IT, transportation, and 
medical supplies. GAO estimates that agencies could save tens 
of millions to hundreds of millions of dollars if they fully 
implement category management on IT acquisition alone.
    What is preventing agencies from fully implementing 
category management? How could the Office of Management and 
Budget improve its oversight of category management?
    Mr. Dodaro. There are several things that could be done. 
When we looked at this in the private sector--what do they do 
in order to drive down their costs. They pore over the prices 
that they pay, what they spend. They do analysis after analysis 
after analysis to drive down their costs because they have the 
incentive, from a profit standpoint, to drive these costs down.
    For the Federal Government, there is not enough of this 
basic information available in the first place. Only about 10 
percent of all spending on commonly-used goods and services has 
enough pricing information available to do these spend analyses 
and then to identify their requirements.
    OMB can provide greater leadership to deal with these 
limitations on the data, but they are already making some 
progress. Between 2017 and 2019, they saved slightly over $27 
billion from the category management initiative. But there are 
billions more than could be saved here.
    The agencies need to have savings goals themselves. What 
OMB has been reporting is the governmentwide savings, but there 
are certain agencies that could do better. You have to set 
agency targets, have performance measures for each of the major 
agencies, to have them drive down these costs. You need better 
data, you need better leadership, and you need an agency focus.
    Senator Hassan. OK. Excellent. What other benefits does 
category management offer? I am particularly interested in how 
agencies could use this practice to inventory their IT systems 
in an effort to reduce reliance on legacy IT.
    Mr. Dodaro. That is exactly right. I mean, IT is one of the 
categories in category management, and it is a big one. The 
Federal Government spends $90 to $100 billion a year on IT, and 
most of that, 80 percent of it, is for operations and 
maintenance of existing systems, many of which are old, 
outdated legacy systems that carry with them the millstone of 
security concerns as well.
    What we found in the IT area is agencies were not sharing 
enough contract information, even within departments, but 
across government, so that people would have the knowledge to 
know who is buying what, where, and what are they paying for 
it. If you do not have that basic knowledge, you cannot 
consolidate. OMB put out some very good guidance, but not all 
the guidance has been followed by all the agencies. There needs 
to be greater compliance, and that is what we have been 
focusing in on with our recommendations, to implement these 
best practices that we have done research on, and OMB has put 
into practice. There needs to be greater compliance to get the 
full benefit of the category management.
    Senator Hassan. Thank you. That is of ongoing interest, 
because I think we really need to drill down on the legacy IT 
issue in Federal Government writ large, and really modernize 
not only to save money and be more secure but to give the 
American people the kind of service they are rightly expecting 
in the 21st century. I look forward to working with you on 
that.
    I am going to move to another question and then I am going 
to check on where the other Senators are, and if folks cannot 
make it we will have one wrap-up question.
    But I want to move now from talking about category 
management and legacy IT to coins. Earlier this year, Senator 
Ernst and I reintroduced the Coin Metal Modification 
Authorization and Cost Savings Act. This legislation addresses 
a recommendation to Congress made in the 2019 annual 
duplication report to authorize the U.S. Mint to modify the 
composition of coins in circulation.
    Currently, the United States Mint spends nearly twice as 
much money producing the penny and nickel as the coins are 
actually worth. The Mint has conducted extensive research on 
different metal compositions that could be used to save on 
production costs, but it does not have the authority from 
Congress to start producing these alternatives and realize 
millions in cost savings.
    What advantages would the Mint have in reducing production 
costs by having broader authority to use alternative metal 
compositions rather than overly prescriptive authority defining 
specific metal alloys to use?
    Mr. Dodaro. It would allow the Mint and the Treasury 
Department to adjust the metal composition of coins based upon 
changes to prices for different metals because they do not have 
the authority to do that now. As for nickels, dimes, and 
quarters, they could save millions of dollars a year. But if 
they moved to a particular mix of metals that could change 2 
years down the road, depending on production and prices and 
market influences. Giving the Mint the flexibility to adjust 
the metal composition will allow them to make changes in 
response to metal prices and market influences.
    I think the only stipulation Congress should give is that 
when the Mint adjusts the metal composition of a coin, it does 
not change its weight or appearance, so it functions the same 
for the public and in vending machines. Without this 
stipulation, the government may save money but cause increases 
in costs to the private sector. But I think it could be done. 
The Mint should be given broad authority to adjust to market 
conditions.
    Senator Hassan. Thank you. I am now seeing that Senator 
Hawley is joining us remotely. Senator Hawley, you are 
recognized.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you very much. Thank you, Madam 
Chair. Thank you, Mr. Dodaro, for being here.
    Let me talk with you a little bit, if I could, start on the 
issue of the IRS and customer service. The GAO's annual 
duplication report discusses how the IRS can improve customer 
service and also address the average $441 billion gross tax 
gap. To start on this, could you give us a sense of how 
outdated or duplicative processes limited the ability of the 
IRS to provide services during the pandemic?
    Mr. Dodaro. Yes, Senator. I will mention one area and then 
I will turn it to Jessica Lucas Judy, who is our director for 
tax issues, and she can explain further.
    The one area that really struck me when we did our work was 
the limited English proficiency of some of the customer service 
materials that were put together, given the multiple languages 
we have in our country. Now they have changed the 1040 into 
Spanish, for example, to make it easier. We should be making it 
easier for people to comply with our tax laws. Jessica?
    Ms. Judy. Right. As the Comptroller General said, one of 
the areas that we highlighted was in limited English 
proficiency, and I am pleased to say that IRS has taken some 
steps to expand the information that is available in other 
languages to taxpayers, which we think will help improve 
compliance and help people understand what their tax 
obligations are.
    Another area that we looked at in this past year, with the 
effect of the pandemic, was IRS's ability to provide customer 
service remotely. While they did manage to eventually open up a 
lot of the telephone lines and allow for taxpayer interaction 
and taxpayer service to be provided remotely, most service at 
the taxpayer assistance centers is in person, and that has 
taken longer. We recommended that IRS look for additional ways 
to provide customer service to taxpayers and provide ways for 
its workforce to be working remotely, to provide additional 
service.
    The telephone level of service in the current filing season 
has come down significantly, and so it is a lot harder for 
taxpayers who have questions to be able to reach customer 
service assistors, and they have to wait longer to be able to 
do that.
    In addition, the processing of returns and providing 
information to taxpayers is also taking a lot longer. A lot of 
that is paper-based and not able to be done remotely. That is 
another area that we highlighted.
    I am pleased to say that IRS has been working on improving 
its customer service strategy, which is another area that we 
have highlighted in the past, and to try to look more broadly 
at the taxpayer experience and to make sure that its 
performance measures are aligned with its strategic goals for 
improving service to taxpayers.
    Senator Hawley. Very good. Let me just ask you about the 
remote work component, since you mentioned it. Mr. Dodaro, I 
will ask you this, or anyone who wants to answer. Do we have a 
sense of what percentage of the IRS's workforce transitioned to 
remote work during the pandemic, and now what percentage is 
back working in an office-based setting?
    Mr. Dodaro. Jessica can respond, Senator.
    Ms. Judy. At the end of October 2020, most of the customer 
service representatives were able to work remotely. It took a 
little time to get that up and running, but IRS did provide 
technology and authority for its customer service 
representatives to work remotely. But as I mentioned, they had 
more difficulty with remote work for submissions processing and 
returns processing. As of the end of October of last year, it 
was still about a third of some of those offices that were on 
either weather and safety leave or another type of leave.
    IRS has been calling more of its employees back in as they 
have found ways to have employees work safely, but there are 
still a number of employees that are out, and as a result, we 
have seen that there have been significant delays in processing 
returns--and in getting information to taxpayers, and that has 
been a continued source of frustration for people.
    Senator Hawley. Yes. We have heard a lot about this. I have 
heard a lot about this from my constituents in Missouri, lots 
of delays in processing tax returns, lots of delays around the 
relief checks, as part of the COVID relief packages. This has 
been a source of great frustration in the State, which is one 
of the reasons that I have asked Federal offices in the State 
of Missouri, with the vaccines now widely available, to return 
to in-person work as soon as possible.
    Is it your sense that some of the delays with processing of 
returns, with processing of relief checks, or answering 
questions about these things from constituents, were due to the 
shift to telework? Is that your conclusion, based on what you 
have seen?
    Mr. Dodaro. Jessica.
    Ms. Judy. A lot of the areas that we had highlighted in the 
past were exacerbated by the pandemic and the need to work 
remotely, such as this reliance on paper-based processes, the 
reliance on legacy systems and inability to access a lot of 
IRS's systems when working remotely. That has caused a lot of 
the delays that we are seeing.
    Mr. Dodaro. Yes, I think, Senator, there also have been a 
lot of additional responsibilities given to the IRS on top of 
just their normal tax processing systems, and they were having 
difficulties just handling their normal tax processing systems. 
For example, 23 percent of business tax returns that are filed 
are still done on paper. Even though they may be electronically 
prepared, they are filed on paper. A lot of individual people 
send in paper forms. We have made recommendations that Congress 
require paper returns to at least be scanned, have a bar code 
on them that could be scanned. They could be much faster if 
they can eliminate more paper and go from an electronic 
standpoint.
    When you have that kind of built-in problem in your normal 
system, and then you have the pandemic, or if you asked IRS to 
do something else, then they are going to have all that much 
more difficulty. They need to improve their strategies as well. 
However, having this material in an electronic format would 
greatly enhance their timeliness.
    Senator Hawley. If I could, Madam Chair, one final 
question. I am curious. The GAO report notes that the IRS 
disagreed with at least one of your recommendations regarding 
remote work and paid leave. I am wondering if you could 
describe what that recommendation was and why the IRS said that 
they disagreed with your assessment.
    Ms. Judy. That was a recommendation that we made that they 
assess other ways to have employees who were on leave be able 
to work remotely, to see if there were perhaps other jobs that 
those people could do, other training that they could have that 
could be done safely in a remote environment, or if there were 
other locations the IRS could use. IRS thinks that it had done 
all that it could do, all that it needed to, to be able to have 
its workforce back.
    Senator Hawley. Understood. Thank you very much. Thank you, 
Madam Chair.
    Senator Hassan. Thank you, Senator Hawley. I have a wrap-up 
question, and there is a chance that one or two more Senators 
may come by, but we are just going to go forward and see if 
they can make it or not.
    But really, to close, what advice would you give to 
agencies hoping to continuously monitor their programs for 
duplication, overlap, and fragmentation in order to be better 
stewards of taxpayer dollars?
    Mr. Dodaro. Number one, I think they should recognize there 
are significant opportunities for savings. They should not 
accept the status quo. They should challenge the status quo and 
try to find ways to reduce cost. They can use GAO and the 
recommendations as a guide, and those they may receive from 
their inspector generals.
    Every year I send each agency head a letter with open GAO 
recommendations, and I prioritize which ones I think could 
result in greater savings or improved services, public safety, 
or other things, to the agency head, in a manageable number 
that I think should require their personal attention. I also 
meet with each of the agency leaders, as they get confirmed and 
in place, to talk to them about suggestions that we have for 
going forward.
    Also, I would recommend, as I mentioned earlier, that they 
look at making sure their chief information officers and their 
chief financial officers, their management team, has all the 
authorities necessary. They also should quiz their management 
teams about the reliability and accuracy and completeness of 
the data that they use to make decisions, to make sure they 
understand some of the limitations. They should also move 
forward with plans to improve the reliability, timeliness, and 
completeness of that information, so they are able to make 
better informed decisions.
    Then last I would say to them that they should work very 
closely with OMB, and volunteer to be part of this program 
inventory development process, because that will help them 
learn more about their programs, the history, as well as other 
related programs in other agencies that could allow for 
savings, not just within their agency but across government.
    Senator Hassan. Excellent. Thank you for that, and I look 
forward to continuing to work with you on that.
    Senator Scott, your timing is just perfect, because the 
Comptroller General and I were just wrapping up my last 
question.
    Senator Scott. I didn't have any. I was just coming in to 
listen to the end of it.
    Senator Hassan. OK. What we were just talking about was 
what agencies could do to really continue to conduct their own 
inventories and learn more and not assume that they cannot save 
any money, because there is plenty of money to be saved.
    If you are all set in terms of questions----
    Senator Scott. No. I just want to thank you. [inaudible].
    Mr. Dodaro. Thank you, Senator. I appreciate that very 
much. Thank you.
    Senator Hassan. Let the record reflect, in case it did not 
come through in the transcript, that Senator Scott thanked the 
Comptroller General for his work and his reports.
    I want to thank all of those who were able to join us this 
afternoon. Thank you, Comptroller General Dodaro, and your 
dedicated staff at the Government Accountability Office, for 
your valuable work and insights on the topic of duplication, 
oversight, and fragmentation in Federal programs. Thank you as 
well for your contributions to improving the effectiveness and 
efficiency of the Federal Government so that it works better 
for the American people.
    As I mentioned in my opening statement, I look forward to 
continuing to work with Ranking Member Paul to save taxpayer 
dollars and deliver government services more efficiently and 
effectively.
    The hearing record will remain open for 15 calendar days, 
until 5 p.m. on May 27th, for submissions of statements and 
questions for the record.
    This hearing is now adjourned.
    [Whereupon, at 3:31 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
